ORIGINAL

, >

80-5714

filed

JUL 0 ? 2020

IN THE
SUPREME COURT OF THE UNITED STATES

DoUftO) J6SEPH KDSttfUMR., Ji _ — PETITIONER
(Your Name)

vs.

DAHLEL LESAT2L

------ ------------------------------------ — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES CO [APS bP A?PEA-LS
FoK THE SIXTH CIKCuLT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DONALD J. KOSHMTDKR II

(Your Name)

351k La/tT Swv
(Address)

Cflflillftjf. tlirh;>^CvlT>
(City, State, Zip Code)

-437(0
(Phone Number)

l

ol

ik

QUESTION(S) PRESENTED

I. T>'id
Circuit err u)htn its option
fcbled tc> an<0^xe ^eYitioneC'S iSSUCS CtCCO'
rd\Aa to t^e, Legislative directive that-Public
Act 2.&2> is retroactive ?
II. Did the <$ixtt\ Circuit err u>^ it opined t^t
''Thus* the mariiuana in the room that was ac­
cessible to Petmoner could be cdtributane to
him and he toould not be entitled to §>4 imjrm
unit') for the possession of it because the Store of the marhuana did not co^pW voiththe

nn a ?

J

m.Did, the 3>Xth Circuit tre when it op*ned that,
Petitioner uxxs not entitled , to immunity under
(4) above because an') assistance to co roistered
Qualified patient mast be limited to.tLeuseor
Ocdm.ntstration of the mcmiuana, o)hlch MicJbUan
Supreme dettrrmn td is cooawct involving onH tnC
GXHtal maestion of mariluana. i1cdjuten}4/3 Mich
cut 15ft. While the sale of medical marijuana is
included Within the detinaHoo of'medical Use“
of marnuanc^ Hc^uten^dMich atl52-) thetransfee deliveryt and acquisition of manh’uana are
three activities that are
(0

part of the. “medical use,'1 of marijuana that the
chaffers of Hk MflKlA chose not fo delude as protected activities within i4GV'Jd* at |5g .?
IVi X)id the Cix4 Circuit errand abuse ifs d'iSCretion and den^ Tttiboner hIs t>ue» Process fahf
to a fair trial Wher> it declined -to determine
the amount o'? m^rluA^ioa in possession of Peti­
tioner for purpose or Section 4 and t immunity
Orrirmatt/e deafens-e* in Counts 4, S, b and 5 ?
V, D/d the. Sixth Circuh err when it opmed that
Petitioner also claims that the trial couft abused
te discretion in ordering Cl blanket prohibit;^
c^amsf the admission 0f (4MMA-evidence.
Petitioner contends that these, errors rise to fKe
level
Coos.htutiooal deprivations, Yfe disagree, f
VI, ^idtKe &xth Circuit trr U)hen it opined 4hat
the trial Court did not abuse Its discretion oohen
4 railed to allouJ thejur'j fa determine shelter
malntalnina cl (W house Was the substantia) pur*
pose of the user of the property at the two loc­
ations ih Court tS 4 and ^ as the idlchiaan SufConZ
Court required lo reopje. v,Thompson, 4/7 tlich Ifert
730

log Lzool')
(ii)

cm!

trio) Counsel was in-effkc’Hw- fW failure to
KnotO ■t'K^ lew and r^u^sf 4he. oddifiDnadjCWifyna
instructions. ?

^

J

VlX% V/(xs tf\«- tvldtnot insufficient in CouM-s 3
and *7 fKa> TcHKopct cudtd and ubbet+td cE^n
ftunf d Wik<l bblloiAJay to illeyJV'i distribute mari­
juana ?

(iii)

LIST OF PARTIES

j)^f All parties appear in the caption of the case on the

cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

i, Donald J. t^osHmider, ' v,
LeSafz,
U.S, CoufV of Appeals for tf\t. SijM
dn>ed* April IS^ 2.02-0

2.,IWdd J,
No, l*

y.lWid LeSafz.,
US.'Disbi'd' Couff for fkeVfe-

fern District of Mich,^an Ou^menf (!aH& N 0Sf~

'ember

S.?topl$~ of rtichi&aA v. Donald cT‘ l^oshmiden, 44
No, I5<i2>l* & (3S) nichUan Supreme (Wff Order
(Wed'

.
(iv)

Coni' t r» cJr^Odihed

m, Ttop)?, of tAicK;&OA Y 3)oa<?J$ Jr fjoshmidtr.
NO’MOIl+UnpublisKei liidK'.&c«i\ Court of %<a)2>
OpiAion cWtdl Ftbrwar'l 7fh £01^ .

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION.

,2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT...

• iiMtitlMtttiiiMiiiKtiiiiiiiirMiiliaitu rn «aanafaa«»a*aaYafi~a*ata

CONCLUSION

40

INDEX TO APPENDICES

APPENDIX A

5

C 0> O'*'"*'1'5'211

APPENDIX B

ULS. T> iSf * Cff Wh,cK 6Pir*i tin 11 j

APPENDIX C

U.S*'Dish
WiDlsi.
Order T>€ay inS 'Recon *
SiAiruhm CtrVificaH o-f ^PPtakbillh

APPENDIX D

MicK^tAA Sut^€4ncCr+- Oder l ift I r

APPENDIX E

Hich^fN CWv of/iMe&ls Order zhlfl

(vi)

l1?

>*

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

GhAC LLC v. Treasury DtA 9 ft/* M-.rL'AAP ^ ^
^2-i 7*1 NW2.A 310 Clio*). '
n ^ 24%5 /
InT^c. W.rvshiP, 341 U.S, 353,36,4; 9o S'-Ct
lo&k (I47&1
nirvvrtl-fJrA C^O

38

V. Morrison, 477 U.S. 5WS.W,
S.O- 2374, 'll L.Edadi&s f
37
?toPI<. v, AlAridK, Z4b Mi<4> AfPioi, (431 KlW^d
<o7 (_4oo0
30

Stc cJWJhei sV\e*JSTATUTES AND RULES

M-C.l. A. S 333. lie42.1 dr
MCL 2.33,1401 (£) Cd) CiiO
MU- 333.7 403 a) Cdl
Ma 333.1405 CO GO
M'KE 4o2.

OTHER

?ubL*c AQU.S. Co/vsf, Am, KLV
UvS, C&asA-. Am XXVj ConSf Wtt. arH, s«cKon 17
(vii)

PAfrE MuMREA

CASES
Ttopl <L

si,

Dtifn»,('| 1%U Mfo App 2Jo } 777 KW
24, 26, 28, 30

rtopk v.'feosH.(.|Ho M’A A^l47)

NW
31

TJ.QfA (AVI').

Pt/>p\.e vl X)g]afaA> 4o4-M»Vh
27S NW
ad
f iq 7<*x______ ________3i
pfftpfc v.'fit/prv*., n*r Mt/X Aff &VI7; 771 HW
2yV f7o fp^Y

'

35

?topk y, Pfnof1)( 2.1*0 Nich App&»lf2.7D>77
NW ?/> rafe (Zah^.

38

T>tnpl<L v. Hfr/npfori, 407 MirJri ?>54; 2%5 Nv»l 2/j,

7.*lfft7qY

Peopl g

39

V. -LfN-iA)>Vk.,44t< Midi 1^7- (.2,0161 n
1

'Pe-oplf V, Rc..^)K,^ ?4<, hirk/lpp 433,4.57;
£»2Jg NVnIoA io<, (?.Q5iY
38

-kopk v. B-enry ?.!ta M;c,K 4pp 140 • uo7 MW£,j
7fo7 (I

30

(viii)

CtKK

ffiopk V. )knrS;S)5 Mich P^o lSO,1^ NW?-d
30
1./2-0|Ip).
?Q>plc V.

M;^h 'lkt>) ^ Mw^yj

?3i r^oisy
fc>fk v.

5H feoVzf

31,39

1

i h.VK x'<l. 4f)L; v,n HtiiA

'

23,25

Ptop\a. V . LflTnre5^; Unpuhl'^fJ nplA.'n^ ppr_______
CUriV-nT) ftf fh? (Vr>- ftf Aypi^c., rleiJitd______
^ 2.S, 7imo Doc fa.V Mn.?>qfS,S?'3
36~ ______

-feapk y. Honufcl^iq

App W Clo\i). p>~,

?top)<L v, MartHm, tfn fVK
&o7 C2^oio).

31

1>
i-ep^k v. |jocluc^7 hifK^^ ?7z|VW2./j 2ai

f 2^151
3>7 fT^V

28, 29

254f1.v.h AppUb m NvJ^
'

?eop)i v. l\lftrP)<Li> an M.V.h App u^a-

Ks’fco/fa).

30

nwoA
37

(ix)

f.Ases
fcopk v. Klftujflr^^LH’.f.h3gi :^oa;p4-tt^£cjf
WCtoafr______;_______ [______■

39

?&opk Y/PdTelW 42.4 dirk 7.7J, Qt7 ■ %%a NW ?J

u C ins"*.

35

People■■v.'R:(LI 1^44)7 N,v>>u^, 12.4
SO f2j)QZy

35

People y.^oI); 4-53 h;fh~730/>suNW;>i%f,\
f

31

People y Thompson ,477 Nieh lU-^^o NW2*j 70%

f 2jX> 7 V poplin

34/36,37 ■

fe>ok VvTrz.0S. UnpubliskgjL pp 1 nlnp
(£ VK^. Cour^- &y Jtyygct<ls1 iSSia-pj! T^ei .//Ah^/r )2; 2a/7

CfrocKd- No, %^(a(/)(rT)

31

^ topic v. ml-kio&j Unpublished
irf 4-1 e
( Port- of App<&l5> pprruri^fn Au-.u51- ii/i\)|
(j)ar,b4-.< i Hoa 7> 02.559: rtr.^'KK7_ssg\_____ 1 31
?{jf)e- v. LiuVJ&K!) 4^ fdirh 4^fSoi :,9r>9, NW?/
7.60 f2o)iY

35

TfcOflcv. Marl-in, 2.71 Mich App?.iSQ,?)^7; 72\ NW
s
(X)

LAi$6h
%\S

34

ID

Ktapk.
2A) hlcK Ayp 4^1; 4^5 rUD > felt*
35
NWfcd l<£g CUoS)

'SfrlckW/M* v,
loSLlm^l

&£m
34, 38

(xi)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
the^mon andis United States court of “BP6®18 appears at Appendix A

to

[ ] reported at
------------- 5 or,
[ Lhas been designated for publication but is not yet reported; or,
is unpublished.
t^petMon mid**6 Uldted ®tates

court appears at Appendix

[ ] reported at
■
______ _______________________. Qr
[ ] has been designated for publication but is not yet reported* or
P<4 is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at __________ _____________ ___________ . Qr
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
C ] reported at ____________________________ _________ „ Qr
[ ] has been designated for publication but is not yet reported* or
[ ] is unpublished.

1

to

JURISDICTION

0^ For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was Apr»v is, 2,02-ft
^No petition for rehearing was timely filed i
m my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: __________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
I ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appeals at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including___________ _ (date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Midv.San Tut lie hdr
UniKi
(Wl*
tutiooov\ Amen^(nM+ Fcurtttn; Cirnsfi fuHon l%2>
t
Article 1 Section \1

3

Statement of Proceedings and Facts
Donald Joseph Koshmider, II, Defendant-Appellant was
convicted of:
• Count 2: Deliveiy of Marijuana to Andrea Deleon on June 27,
2016. MCL 333.7401 (2) (d)(iii),
• Count 3: Aid and Abet the Delivery of Marijuana to Tayler
Curtis on April 21, 2016. MCL 333.7401 (2) (d)(iii),
• Count 4: Maintaining a drug house at his shop. MCL 333.7101
(MCL 333.7405(1) (d),
• Count 5: Maintaining a drug house at his home. MCL 333.7101
(MCL 333.7405(l)(d),
• Count 6: Possession of Marijuana, 2nd offense. MCL
333.7403(2) (d),
• County 7: Aid and Abet the Delivery of Marijuana to Aaron
Sible on June 9, 2016. MCL 333.7401 (2)(d)(iii),
• Count 8: Possession with intent to deliver Marijuana on July
11, 2016. MCL 333.7401 (2) (d) (hi)
Habitual 4th on Counts 2-52 after a four-day jury trial
conducted on July 11-14, 2017, before the Honorable William M.
Fagerman in the Wexford County Circuit Court Case No. 16-11749FH. On August 28, 2017, he was sentenced to time served on Count
6, and 13 months to 180 months on the remaining counts.

2 Mr. Koshmider was found not guilty of Count 1, Possession of
ammunition by a Felon, MCL 333.74012C-A.

4

On May 26, 2017, an evidentiary hearing and motion to
dismiss pursuant to MMA Section 4 & 8 was held and denied.
At that hearing, Donald Koshmider testified that he had a
marijuana card from the State of Michigan. (EH, 5/26/17 p 7). It was
current in July of 2016. On July 11, 2016, he was at 1552 Plett Road
and he had a quantity of medical marijuana with him. (EH 5/26/17 p
10). He had it in a lockbox. He had about an ounce and a half of
Kosher Kush and three to four grams of some concentrate. (EH
5/26/17 p 11). His card allowed him to possess two and a half
ounces of usable marijuana and 12 plants for medical use. The police
raided his home at 3576 Sarah Street and found plants that Mr.
Koshmider stated did not belong to him. (EH 5/26/17 p 14). They
belonged to Chris and Rose Swaffer who leased his basement. (EH
5/26/17 p 15). They had a grow room in the basement which was
padlocked and he did not have a key to the room. (EH 5/26/17 p
16). The officers had to use bolt cutters to break the padlock and
other tools to breach the room. He had never been inside the rooms
after he leased the basement to the Swaffers. (EH 5/26/17 p 67).
Mr. Koshmider ran a dispensary called a club where he would
sell marijuana. He verified that each member of the club was either a
registered primary caregiver or a registered qualifying patient. He
required to know their medical condition, their physician and their
pain levels. (EH 5/26/17 p 18). He would provide them with an
amount not more than reasonably necessary to ensure uninterrupted
availability. (EH 5/26/17 p 20). He had a small volunteer staff that
worked at his shop.

5

Trial
Nathan Edwards was a Deputy of the Wexford County Sheriff’s
office assigned to Traverse Narcotics Team (TNT). (TT 7/11/17 p
284). In 2014, the TNT was investigating some shops around Cadillac
that were selling marijuana to marijuana patients and not following
the statute. (TT 7/11/17 p 285.) TNT did four controlled buys of
marijuana from Mr. Koshmider who they believed was providing
marijuana to marijuana cardholders. (TT 7/11/17 p 288). The dates
were January 30, 2014, February 13, 2014, March 27, 2014, and
June 25, 2014. (TT 7/11/17 p 289). Two of the strains purchased
was black widow and Bubblegum. (TT 7/11/17 p 307). A search
warrant was executed on July 9, 2014. (TT 7/11/17 p 290). The
search warrant address was 1632 North Mitchell St. (TT 7/11/17 p
295). Mr. Koshmider told him that he was the owner of Best Cadillac
Provisions. (TT 7/11/17 p 291). The officer testified that Mr.
Koshmider claimed that he would purchase marijuana from farmers
and resell it to individuals who came in. He stated that Frank and
Chris Swaffer also worked at assisting with the provisioning room.
Chris Swaffer’s name was still on the lease at Mitchell Street until the
end of July. (TT 7/11/17 p 294).
Mr. Koshmider lived at 3576 Sarah Street in Cadillac. (TT
7/11/17 p 296). He paid for his mortgage with the rent money he
received from the the Swaffer’s who rented rooms in the basement of
the home. The Swaffer’s had two marijuana grow rooms that Mr.
Koshmider did not have access to. (TT 7/11/17 p 297).

6

On July 10, 2014, Mr. Koshmider was given a cease and desist
letter. (TT 7/11/17 p 298). He stated that no further provisions
would be offered at the business until the law changed. (TT 7/11/17
p 299).
On cross examination, the officer conceded that in 2014,
“edibles” and “concentrates” were not protected but at the time of
trial the law had changed, and they were protected. (TT 7/11/17 p
301). Further he was not aware of how many different strains were
on the market and whether Bubblegum was prevalent or not. (TT
7/11/17 p 309).
Lieutenant Daniel King was a detective assigned to the
Michigan State Police who worked as a TNT commander. (TT
7/11/17 p 310). He testified regarding a settlement agreement
entered into between lieutenant King, the prosecuting attorney and
Mr. Koshmider. (TT 7/11/17 p 313). Lieutenant King was also
present when the cease and desist letter was delivered to Mr.
Koshmider. He testified that Taylor Curtis was the confidential
informant on April 21, 2016. Aaron Sible was the confidential
informant at the second controlled buy on June 9, 2016. (TT
7/11/17 p 324). They attempted to make another controlled
purchase the next day on June 10, 2016 with Aaron Sible. (TT
7/11/17 p 327). That controlled purchase was unsuccessful. The
third control buy took place on June 27, 2016, with Andrea Deleon.
(TT 7/11/17 p 332). Each of the confidential informants was
required to have a medical marijuana card. Otherwise, the dispensary
would not sell to them. (TT 7/11/17 p 341). In return for their
cooperation in the controlled purchases, Taylor Curtis had been

7

originally charged with delivery of cocaine and he was allowed to
plead guilty to possession of cocaine. (TT 7/11/17 p 338). Aaron
Sible and Andrea Deleon were also facing criminal charges. The
Officer testified that Ms. Deleon received a benefit for acting as a
confidential informant. (TT 7/11/17 p 343).
Detective Olivia Garlick worked for the Michigan State Police
and was assigned to TNT. She was the officer in charge of the
investigation of this case. (TT 7/12/17 p 369). She testified
regarding Mr. Sible’s failure to make a second controlled purchase.
Apparently, an issue occurred, and he was told to leave the
dispensary. (TT 7/12/17 p 393) The remainder of her testimony
concerned the detailed process of preparing and debriefing
confidential informants. She was able to provide the information that
Mr. Sible’s motivation for participating was a charge of UDAA that he
wanted to have dismissed. (TT 7/12/17 p 412). She testified that it
was mandatory to have a patient card in order to get marijuana. (TT
7/12/17 p 425). Later, Andrea Deleon would testify that you couldn’t
enter the business without a valid patient card. (TT 7/12/17 p 439).
Andrea Deleon knew Mr. Koshmider because she went to his
business called Cadillac Provisions. (TT 7/12/17 p 428). She
purchased a couple grams of marijuana from Mr. Koshmider. She
testified that he pulled it from a Mason jar that he had in a briefcase.
(TT 7/12/17 p 431). She testified that previously to this day, she had
been stopped by police after she left Cadillac Provisions and she had
marijuana in her car that was not locked up in a case. She believed
that the police had targeted her. (TT 7/12/17 p 435). Although she

8

was a registered patient, Mr. Koshmider was not her registered
primary caregiver. (TT 7/12/17 p 443).
Taylor Curtis was another individual who had made a
controlled purchase in this case. (TT 7/12/17 p 448). His motivation
for participating in the controlled purchase was that he had been
charged with delivery of heroin. (TT 7/12/17 p 455). He purchased
four and a half grams of the bubblegum strain from Jason, who
helped him at the dispensary. Jason was not his primary caregiver.
(TT 7/12/17 p 451).
The last confidential informant was unavailable, so his
testimony from the preliminary examination was read into the
record. (TT 7/12/17 p 471). He purchased five grams of marijuana
from a man named Mike. He had never met Mr. Koshmider before.
(TT 7/12/17 p 474).
Jayson Hunt obtained his medical marijuana card and was his
own caregiver. (IT 7/12/17 p 533). He stopped in at a dispensary on
Mitchell St. He met Don Koshmider and began to help him move his
shop from Mitchell St to Plett Rd. (IT 7/12/17 p 531). He then
began to help in dispensing to medical patients. He was compensated
with medical marijuana. He testified that Mr. Koshmider would bring
the marijuana to the location. (TT 7/12/17 p 533). He would only
bring the amount that was needed for the day. At the end of the day
Mr. Koshmider would take the remaining medical marijuana away
from the location. There were occasions when he would call Mr.
Koshmider for additional product who would then arrive within 2030 minutes. (TT 7/12/17 p 534). On April 21, 2016, he recalled an

9

incident when he sold to Tayler Curtis. Before dispensing the medical
marijuana, he checked his card, his I.D., Consulted with him on his
needs and had him fill out paperwork. (TT 7/12/17 p 535). Mike
Holloway was the only other person who helped Mr. Koshmider.
Once or twice Mr. Koshmider’s girlfriend would bring the product.
(TT 7/12/17 p 536). No one else brought product to the dispensary.
Mr. Hunt stated that he stopped working at the dispensary when he
learned that Mr. Koshmider didn’t have his permit. (TT 7/12/17 p
537). He claimed that he was not given immunity for his testimony.
(TT 7/12/17 p 539).
The Surveillance
Detective Aaron Kearns was a Deputy Sheriff for Missaukee
County assigned to TNT. (TT 7/12/17 p 542). His role on April 21,
2016, was surveillance. He watched the confidential informant leave
Best Cadillac Provisions. His role on June 9*, 2016 was surveillance
as well. (TT 7/12/17 p 546). On June 26, 2016, he role was
surveillance of Mr. Koshmider at Plett Road. He was a cream-colored
Ford Escort northbound on Plett Road. (TT 7/12/17 p 547). Mr.
Koshmider drove a silver Chevrolet van. (TT 7/12/17 p 551).
On cross examination Detective Kearns conceded that he never
saw Mr. Koshmider driving the cream-colored Ford Escort on June
27, 2016. He did not see Mr. Koshmider on April 21, 2016 nor did he
see him on June 9, 2016. (TT 7/12/17 p 552).
Chad Sprik was a Deputy for the Wexford County Sheriff’s
office assigned to TNT and his role was surveillance. (TT 7/12/17 p
554). On April 21, 2016, he observed a white Buick parked in the lot

10

at 1552 Plett Rd. He saw the vehicle leave and drive northbound on
Plett Road. (TT 7/12/17 p 555). On June 10th 2016, he was assigned
to surveillance. He saw Mr. Koshmider driving southbound on Plett
Rd. He was driving a tan or cream-color Ford Escort, and he went to
the dispensary. Mr. Sible, the confidential informant, arrived after
Mr. Koshmider. (TT 7/12/17 p 556). Mr. Koshmider left after Mr.
Sible and he was driving a silver minivan. (TT 7/12/17 p 557).
Detective Sprik followed Mr. Kosmider. At a stop light, Mr.
Koshmider had his cellphone out the window and he was
photographing the undercover officer and his vehicle. (TT 7/12/17 p
558).
Sergeant Brian Hunt worked for the Osceola County Sheriffs
office assigned to TNT. He was also assigned to surveillance. On June
9th, 2016, his role was surveillance. (TT 7/12/17 p 560) . He saw the
confidential informant arrive with Detective Garlick on that day. On
June 27, 2016. He saw a cream-colored Escort sitting in the driveway
of Best Cadillac Provisions. (TT 7/12/17 p 562). The confidential
informant arrived after the tan Escort had left. (TT 7/12/17 p 563).
Mr. Koshmider arrived in a silver minivan and the confidential
informant was still there. (TT 7/12/17 p 564).
Execution of Search Warrant
On July 11, 2016 he was on the entry team to execute a search
warrant at-Best Cadillac Provisions. (TT 7/12/17 p 567). They found
marijuana, a digital scale, baggies and brown bags. (TT 7/12/17 p
571). They also found an empty prescription bottle with the strain

11

name of Bubblegum written on it. (TT 7/12/17 p 572).. That was
found in the dining room. (TT 7/12/17 p 602).
The prosecution introduced photographic exhibits which
showed the contents of Mr. Koshmider’s briefcase. (TT 7/12/17 p
580). An orange plastic container that contained suspected marijuana
oil, suspected marijuana, a digital scale, two cell phones. (TT
7/12/17 p 587).
On cross examination, Sergeant conceded that no firearms or
ammunition was found at Best Cadillac Provisions. (TT 7/12/17 p
588). The officer testified that it was common to find large amounts
of cash during drug raids, yet they didn’t find any during their
search, because it wasn’t there. (TT 7/12/17 p 589). He testified that
nothing was found in the vehicle, because it wasn’t there. (TT
7/12/17 p 591). The only marijuana that was found was in Mr.
Koshmider’s brief case. (TT 7/12/17 p 603).
Detective Olivia Garlick directed the execution of the search
warrant for Mr. Koshmider’s home on Sarah Street. (TT 7/13/17 p
613). Trial counsel objected to exhibit numbers 15-17, 20-23, and
25-28.
Don Bailey was a retired Michigan State Police officer whose
role in the search warrant executed at Best Cadillac Provision was
security. (TT 7/12/17 p 608). He entered the trailer and found Mr.
Koshmider sitting at a table. He handed him a search warrant of his
home on Sarah Street. (TT 7/12/17 p 609). After the search of Best
Cadillace Provision was concluded he went over to Sarah Street
where the simultaneous search was wrapping up. (TT 7/12/17 p

12

610). Two women had recorded Mr. Bailey’s statement that he was
biased against medical marijuana. The prosecution objected based on
relevance. The court ruled that it wasn’t relevant in this case because
it wasn’t a medical marijuana case. Trial counsel argued that Mr.
Koshmider, as a medical marijuana patient would be experiencing
that bias. (TT 7/12/17 p 611). The trial court sustained the
prosecution’s objection.
Exhibit 15—offered to show that this was the address of Mr.
Koshmider. (TT 7/13/17 p 617). Trial counsel stated he would
stipulate that the search and seizure team found items at Mr.
Koshmider’s house. The trial court allowed Exhibit 15,16,17, 29, 20
21 23 admitted over objection (TT 7/13/17 p 619). Exhibits 25, 26,
27, and 28 were rejected as hearsay documents (TT 7/13/17 p 620).
Ammunition was located in the residence. (TT 7/13/17 p
624). The prosecution showed exhibit 27 to the witness and she
testified that it was a close-up photograph of the contents of a
backpack on the ground in the home office. (TT 7/13/17 p 632).
Trial counsel objected to the exhibits as hearsay. Exhibit 27 was
redacted and then admitted into evidence. (TT 7/13/17 p 634). The
items removed from the backpack were seized and sent to the lab for
analysis. (TT 7/13/17 p 637).
The basement of the home had a storage area and a room with
two doors. Each door had a padlock. (TT 7/13/17 p 640). After
gaining access to the back room, several plants were suspected to be
marijuana plants. (TT 7/13/17 p 639). There were 17 plants in this
room (TT 7/13/17 p 646). The key to the padlocks was not found in

13

the house. (TT 7/13/17 p 675). The padlocks on the room to the
right was cut with bolt cutters. (TT 7/13/17 p 641). The room on the
left was accessed with a screwdriver which removed the padlock
from the door. (TT 7/13/17 p 645). Ten plants were in this room.
(TT 7/13/17 p 646). There were names on several pots. The names
were of individuals who did not reside at the residence. (TT 7/13/17
p 678). The names were Rose Swaffer and Chris Swaffer. (TT
7/13/17 p 679). Exhibit 67 showed a large black garbage bag
continuing suspected marijuana clippings, stems and leaves (shake)
(TT 7/13/17 p 648). Trial counsel objected to items 32, 33,34 and
35 based on hearsay. Exhibit 32 showed a white stick with a name on
it. The others were jars. The trial court admitted 32-35 into evidence.
(TT 7/13/17 p 652). They found suspected marijuana leaves behind
the bar area. (TT 7/13/17 p 656).
On cross examination the officer testified that no firearms,
ammunition or cash was found in the basement. (TT 7/13/17 p 672).
On the main level of the house she did not find any firearms,
weapons or ammunition. (TT 7/13/17 p 673).
David Geyer was a trooper with the Michigan State Police, and
he assisted with the TNT search at Mr. Koshmider’s residence. He
searched the master bedroom where he found ammunition in the
closet. (TT 7/13/17 p 684). He also observed men and women’s
clothing in the closet. (TT 7/13/17 p 691). Mr. Koshmider’s name
was not on the box of ammunition. (TT 7/13/17 p 694). The Trooper
could not say whether or not Mr. Koshmider had ever touched that
box of ammunition. (TT 7/13/17 p 698). He was also the officer who

14

found the backpack in the home office. He found suspected
marijuana candies in the backpack. (TT 7/13/17 p 690).
John Lucey was a Michigan State Police assigned to the
Grayline forensic laboratory. (TT 7/13/17 p 715). Item 1/People’s 12
was 3.6 grams of marijuana. (TT 7/13/17 p 719).
Karen Brooks was a Michigan State Police assigned to the
Grayline forensic laboratory. (TT 7/13/17 p 721). People’s 15 was
4.92 grams of marijuana. People’s exhibit 18 was 3.08 grams of
marijuana. People’s exhibit 68 was 3.8 grams of marijuana. People’s
exhibit 28 contained THC. (TT 7/13/17 p 729). Trial counsel
objected to Exhibit 28 because the lab technician could not opine if it
was natural or synthetic. Mr. Koshmider had not been charged with
possession of synthetics. The court denied the objection because it
was not inappropriately prejudicial. (TT 7/13/17 p 733). People’s
exhibit 56 was the lab report for item 24 (Exhibit 66) and item 62
(exhibit 69). Exhibit 69 was 27 marijuana leaves. People’s exhibit 29
was item 30. People’s exhibit 67. People’s exhibit 57 was the lab
report for Items 22 and Item 30. Item 22 was 22 grams of marijuana.
Item 30 was hard candy that contained THC. (TT 7/13/17 p 738).
She could not opine if the THC in the candy was natural or synthetic.
(TT 7/13/17 p 739). Trial counsel objected to this exhibit as well and
was overruled. (TT 7/13/17 p 744).
The prosecution moved to admit the recordings of the
confidential informants. The Court allowed the recording containing
the voice of Mr. Koshmider because they were not hearsay. He
denied the admission of the other recordings. (TT 7/13/17 p 752).

15

Michael Holloway was a friend of Mr. Koshmider and he
worked with him at Best Cadillac Provisioning. (TT 7/13/17 p 775).
On June 9, 2016 he was working at the dispensary. He recalled that
Aaron Sible came in and bought a few grams of marijuana flower. He
checked that Mr. Sible had a valid medical marijuana card. (TT
7/13/17 p 776). He recalled seeing him only the one time. (TT
7/13/17 p 778). He was asked by trial counsel if he had any ill
feelings toward Mr. Koshmider. (TT 7/13/17 p 781).
Kris Swaffer had known Mr. Koshmider for 3-4 years. He met
him at the Cadillac Provision Center. At that time, it was an
established center that Mr. Swaffer had with a partner. (TT 7/14/17
p 819). Mr. Swaffer was asked to dose it and Mr. Koshmider took it
over from there. Later he rented rooms in Mr. Koshmider’s basement
to grow medical marijuana. He paid Mr. Koshmider $500 a month
and the electric bill. (TT 7/14/17 p 821). He had a “veg” room and a
“flowering room.” The veg room was where plants were started
before they begin to flower. The flowering room was where the
plants went to finish growing their buds. (TT 7/14/17 p 823). He
would put sticks in plants to label them for the specific needs of
specific patients. (TT 7/14/17 p 824). The left back comer of the
flowering room was a little drying room. (TT 7/14/17 p 825). There
was no door at the top nor the bottom of the basement stairs. (TT
7/14/17 p 826). He had no reason to believe that Mr. Koshmider
came down to the basement. (TT 7/14/17 p 832). He described
trimming as cutting the leaves and buds off the plant. He and his wife
did that outside of the locked rooms. (TT 7/14/17 p 836). The debris
laying around would have been from their plants in the basement.

16

(TT 7/14/17 p 837). The trimmings would have had no value. The
black bag of trash was waiting to be disposed of. Mr. Koshmider
never kept an eye on the plants in the basement. (TT 7/14/17 p
841). He denied ever supplying Mr. Koshmider with the Bubblegum
strain. (TT 7/14/17 p 842). He said that he and Mr. Koshmider
didn’t do business other than to rent his basement.
Detective Garlick retook the stand. She testified that a “dab”
referes to wax, Shatter, honey-BHO which is just butane honey oil.
It’s a concentrate of THC. It is extracted from clippings and leaves of
marijuana plants. Trial counsel voir dired her and she conceded that
she had only been trained in one method of extraction which was
Butane. She was not aware of other solvents that were used, and she
was not trained in C02 extraction. (TT 7/14/17 p 863). If she were
to look at an extract, she would not be able to tell if it was BHO or
C02. The trial court opined that the witness was not an expert in
“dab,” and she was excused.
Matt Verschaeve was a detective with the Michigan State
Police Computer Crimes Unit. He worked with the data extraction
tool called Cellebrite to download information off of cell phones. Mr.
Koshmider’s phone only had one chat program which was Facebook
messenger. (TT 7/14/17 p 877). Trial counsel challenged Detective
Verschaeve’s verification of the report. The trial court stated:
THE COURT: All right. The Court is satisfied that the
witness's testimony satisfies the requirements of 702.
The testimony is based on sufficient facts and data
and that the product has adequate reliability and
principles, and methods have been applied and
applied to the particular facts and data in this case.

17

(TT 7/14/17 p 884).
Mr. Verschaeve continued. Exhibit 73 was an extraction report
identifying a Facebook messaging conversation between a Don
Koshmider's device as well as a device identified as Lynn Huizenga.
The start date was February 2, 2016 and ended on June 12,2016.
The conversations from February were redacted. (TT 7/14/17 p
896). The exhibit was entered into evidence and the witness was
excused.
The prosecution rested.
Lois Kinstner was Mr. Koshmider’s girlfriend. (TT 7/14/17 p
905). She recognized her clothing in the photograph of the master
bedroom closet. She was directed to look at the box on the shelf and
she testified that she knew what was in the box. (TT 7/14/17 p 907).
The box contained items that belonged to her deceased husband. All
of his hunting stuff was in the box. (TT 7/14/17 p 908). She never
told Mr. Koshmider about the contents of the box, and Mr. Kosmider
never went through her boxes. (TT 7/14/17 p 909). She was shown
photographs of the basement which she recognized. She testified that
Mr. Swaffer had rented the basement room to grow medical
marijuana for his patients. She never went in the rooms nor did she
go in the basement. (TT 7/14/17 p 910). She never saw Mr.
Koshmider go into the basement. She never saw Mr. Koshmider
obtain marijuana from Mr. Swaffer. (TT 7/14/17 p 911). In the
seven years she had known Mr. Koshmider, she had never seen him
with a firearm or ammunition. (TT 7/14/17 p 912).

18

Donald Koshmider testified in his own defense. He testified
that he kept belongings in his bedroom and he allowed Lois, his
girlfriend to keep her belongings there too. (TT 7/14/17 p 925). He
recognized Lois’ boxes in the closet. He had no idea what she kept in
her boxes, and he didn’t go poking through her stuff. (TT 7/14/17 p
926). He stated that he had never owned a firearm, but he had shot
one 10-20 years ago. He leased the basement of his home to Chris
Swaffer. (TT 7/14/17 p 927). He was paid $500 and the electric bill.
After he rented the basement, he never entered either of the two
back rooms. (TT 7/14/17 p 928). He described the process of
trimming and that the trimmings went into a garbage bag. They only
wanted the flowers. They never gave, distributed, or transferred
marijuana to Mr. Koshmider. Nor did they ever sell, transfer, or
distribute to his shop. (TT 7/14/17 p 929). In 2014, the Wexford
County Prosecutor raided all of the dispensaries in Wexford County
and gave them cease and desist notices. (TT 7/14/17 p 930). He
encouraged people to keep their medicine in a lockbox. (TT 7/14/17
p 931). No one was allowed any medicine from his shop without a
medical marijuana card. (TT 7/14/17 p 932). On cross examination,
he conceded that he was not a registered caregiver underneath the
State of Michigan. (TT 7/14/17 p 942). He conceded that the
marijuana that he had in a lockbox was not necessarily intended for
him, it was also intended for other sales on that day. (TT 7/14/17 p
948). He distributed 3.2 grams to a confidential informant on June
27, 2016. (TT 7/14/17 p 949). He was aware that Michael Holloway
distributed marijuana to a confidential informant on June 9, 2016.
He was aware that on April 21, 2016, he allowed Jayson Hunt to

19

have access to Best Cadillac Provisions to distribute marijuana. (TT
7/14/17 p 950). Mr. Koshmider would bring the marijuana that was
sold or distributed to Best Cadillac Provisions. (TT 7/14/17 p 951).
He explained that the plants that a Ms. Huizenga wanted to purchase
would be clones that come from any dispensary in Traverse City. (TT
7/14/17 p 952). He admitted to having access to the trimmings on
the floor of the open area of the basement. (TT 7/14/17 p 954). He
did not know if the products contained in his backpack contained
synthetic or natural THC. (TT 7/14/17 p 962).
INTRODUCTION
Mr. Kosmider was convicted as follows:
• Count 2: Delivery of Marijuana to Andrea Deleon on June 27,
2016. MCL 333.7401 (2) (d)(iii),
• County 3: Aid and Abet the Delivery of Marijuana to Tayler
Curtis on April 21, 2016. MCL 333.7401 (2) (d)(iii),
• Count 4: Maintaining a drug house at his shop. MCL 333.7101
(MCL 333.7405(l)(d),
• Count 5: Maintaining a drug house at his home. MCL 333.7101
(MCL 333.7405 (l)(d),
• Count 6: Possession of Marijuana, 2nd offense. MCL
333.7403(2) (d),
• Count 7: Aid and Abet the Delivery of Marijuana to Aaron
Sible on June 9, 2016. MCL 333.7401 (2)(d)(iii),
• Count 8: Possession with intent to deliver Marijuana on July
11, 2016. MCL 333.7401 (2) (d) (iii)

20

to

The trial court made two critical errors during the pre-trial stage

o
oo

that denied Defendant-Appellant his Due Process right to a fair trial. The

K>
4^

first error was when the trial court declined to make a findings of fact as

"d

required by People vHartwick, 498 Mich 192 (2015) which would have
provided a Section 4 and 8 immunity to counts:
Count 4: maintain a drug house at Plett Road
Count 5: maintaining a drug house at his home
Count 6: possession of marijuana
Count 8: possession with intent to deliver.
The second error was a blanket prohibition on any res gestae
evidence

concerning the MMA.

That would have resulted

in

insufficiency of the evidence on counts:
Count 3: Aiding and abetting Taylor Curtin
Count 7: Aiding and abetting Aaron Sible.
A defendant cannot be guilty of aiding and abetting conduct
that is legal. However, no evidence was or could be presented on this
element of aiding and abetting since it would involve testimony as
what the MMA allowed or didn’t allow. The ensuing consequences of
these errors will be analyzed more fully below.
Finally, the Court of Appeal erred when it failed to recognize
the retroactivity of PA 283.

21

Reasons Why Leave Should be Granted
Public Act 283 states:
This amendatory act is curative and applies
retroactively as to the following: clarifying the quantitiesand
forms of marijuana for which a person is protectedfrom arrest,
precluding an interpretation of “weight” asaggregate weight,
and excluding an added inactivesubstrate component of a
preparation in determining theamount of marijuana, medical
marijuana, or usable marijuana that constitutes an offense.1
Plainly put, this Act made medical marijuana protections
retroactive as of December 20, 2016, and thus included the wide
variety of marijuana products. The Court of Appeals included the
following statements in its opinion that demonstrated that Mr.
Koshmider’s appeal was analyzed based on the law in effect at the
time of the alleged offense, and the 2016 amendments were not
applied retroactively as directed by the Legislature. Each
conclusion within the opinion cannot be relied upon as a correct
statement of law.
The Court of Appeals issued the following erroneous
statements:
• Under the version of the MMMA in effect on July 11, 2016, the
possession of edible products containing anything but the dried leaves
and flowers of the marijuana plant by a qualifying patient did not meet
the requirements for § 4 immunity."

http://www.legislature.mi.gov/documents/20152016/publicact/pdf/2016-PA-0283 .pdf
i

22

• "While the amended version of the MMMA does not prohibit
the possession or use of concentrates or edibles, the MMMA
does not apply retroactively and only has prospective effect.
See, People v Kolanek, 491 Mich 382, 406; 817 NW2d 528
(2012)."
•

“Because the actions defendant was charged with occurred
prior to the December 20, 2016, amendment of the MMMA,
the version of the statute in effect at the time of defendant's
actions is used.”

•

“he [Defendant] was not entitled to immunity under (4) above
because any assistance to a registered qualified patient must be
limited to the use or administration of the marijuana, which
our Supreme Court has determined is conduct involving only
the actual ingestion of marijuana. McQueen, 493 Mich, at 158.
While the sale of medical marijuana is included within the
definition of “medical use” of marijuana, McQueen, 493 Mich,
at 152, “the transfer, delivery, and acquisition of marijuana are
three activities that are part of the “medical use” of marijuana
that the drafters of the MMMA chose not to include as
protected activities within § 4(i).” Id. at 158

• “Finally, regarding defendant's claim that a specific amount of
marijuana had to be found by the trial court with respect to his
maintaining a drug house charge at his home address,
defendant's possession of marijuana edibles and concentrate
were not allowed under the MMMA when defendant possessed
them, and defendant essentially admitted that the same were
for sale. He is, therefore, not entitled to immunity with respect
to that charge.”
ISSUE I
The Court of Appeals erred when its opinion failed to analyze
Mr. Koshmider’s issues according to the Legislative directive
that Public Act 283 is retroactive.

23

Standard of Review
This Court reviews the proper interpretation and application of statutes
de novo. People v Bemer, 286 Mich App 26, 777 NW2d 464 (2009).
Analysis
Public Act 283 states:
This amendatory act is curative and applies
retroactively as to the following: clarifying the quantities and
forms of marihuana for which a person is protected from
arrest, precluding an interpretation of “weight” as aggregate
weight, and excluding an added inactive substrate
component of a preparation in determining the amount of
marihuana, medical marihuana, or usable marihuana that
constitutes an offense.3
Plainly put, this act made medical marijuana protections retroactive
as of December 20, 2016, and thus included the wide variety of marijuana
products.
Marijuana infused products are now included within the definition
of “usable marijuana,” then, when they had previously not. The Legislature
is presumed to be aware of, and thus to have considered the effect on, all
existing statutes when enacting new laws or amending statutes. GMACLLC
v Treasury Dept., 286 Mich App 365, 372; 781 NW2d 310 (2009).”
The Court of Appeals included the following erroneous
statements in its opinion:
• Under the version of the MMMA in effect on July 11, 2016, the
possession of edible products containing anything but the dried
leaves and flowers of the marijuana plant by a qualifying patient did
not meet the requirements for § 4 immunity.”

3 http://www.legislature.mi.gov/documents/20152016/publicact/pdf/2016-PA-0283 .pdf
24

•

"While the amended version of the MMMA does not prohibit
the possession or use of concentrates or edibles, the MMMA
does not apply retroactively and only has prospective effect.
See, People v Kolanek, 491 Mich 382, 406; 817 NW2d 528
(2012)."

•

“Because the actions defendant was charged with occurred
prior to the December 20, 2016, amendment of the MMMA,
the version of the statute in effect at the time of defendant's
actions is used.”

• “Finally, regarding defendant's claim that a specific amount of
marijuana had to be found by the trial court with respect to his
maintaining a drug house charge at his home address,
defendant's possession of marijuana edibles and concentrate
were not allowed under the MMMA when defendant possessed
them, and defendant essentially admitted that the same were
for sale. He is, therefore, not entitled to immunity with respect
to that charge.”
Mr. Koshmider was allowed to possess the edibles and concentrate
under the retroactive amendment. Additionally, he said that he wasn’t
bringing them to the center because people wanted “marijuana flowers.”
In regards to the marijuana found at the Sarah street address,
Mr. Koshmider did not possess any marihuana found in the basement
as it was the property of the Swaffer's and the Swaffer’s were in
compliance of the MMMA.
In the alternative, the evidence was unclear whether the
marijuana in the basement area was “usable.” See, e.g. People v
Manuel, 319 Mich App 291 (2017).

25

ISSUE II
The Court of Appeals erred when it opined that "Thus, the
marijuana in the room that was accessible to defendant could be
attributable to him and he would not be entitled to § 4 immunity
for the possession of it because the storage of the marijuana did
not comply with the MMMA."
Standard of Review
This Court reviews the proper interpretation and application of
statutes de novo. People v Bemer, 286 Mich App

Ill NW2d 464

26, (2009).
Analysis
The plants were in "enclosed locked facilities"
The MMMA defines enclosed locked facility as a "closet, room, or
other comparable, stationary, and fully enclosed area equipped with secured
locks or other functioning security devices that permit access only by a
registered primary caregiver or registered qualifying patient". In this case the
two grow rooms were both equipped with secured locks. The MMMA does
not provide for a definition of secured. The definition of secured at
dictionary.com is "dependable; firm; not liable to fail, yield, become
displaced, etc., as a support or a fastening". This particular grow room was
equipped with secured locks. The lock was secured by a screw and access
was only gained with the use of tools. It is also important to note that the
grow room was located in a basement leased to others inside Mr.
Koshmider’s residence which helps add to the security of the facility in
regards to permitting access to only the caregiver.

26

In the alternative, the evidence was unclear whether the
marijuana in the basement’s common area was “usable.” See, e.g.
People v Manuel, 319 Mich App 291 (2017).
The above considerations were questions of fact that the trial
court was required by the statute to resolve. A section 4 dismissal for
Count 6 would have been available had the trial court made the legal
and factual conclusions regarding the marijuana in the basement.
Finally, he was entitled to a hearing on the amount possessed for
purposes of Section 4 and 8 immunity/affirmative defense in Counts
4, 5, 6, and 8. The Court of Appeals erred when it did the Hartwick
legal analysis using the old statute and concluded that the “right
result was reached, even if for a different reason.”
ISSUE III
The Court of Appeals erred when it opined that “he [Defendant]
was not entitled to immunity under (4)1 above because any
assistance to a registered qualified patient must be limited to the
use or administration of the marijuana, which our Supreme
Court has determined is conduct involving only the actual
ingestion of marijuana. McQueen, 493 Mich, at 158. While the
sale of medical marijuana is included within the definition of
“medical use” of marijuana, McQueen, 493 Mich, at 152, “the
transfer, delivery, and acquisition of marijuana are three
activities that are part of the “medical use” of marijuana that the
drafters of the MMMA chose not to include as protected
activities within § 4(i).” Id. at 158

1 (4) one who is “solely” assisting a registered qualifying patient with using
or administering medical marijuana, so long as the assistance is specifically
for the use or administration of medical marijuana, not the transfer,
delivery, and acquisition of marijuana Mazur, 497 Mich, at 312).

27

Standard of Review
This Court reviews the proper interpretation and application
of statutes de novo. People v Bemer, 286 Mich App 26, 777 NW2d
464 (2009).
Analysis
While it is true that McQueen stated that section 4(i) excluded
“transfer, delivery and acquisition from the definition of “using or
administering medical marijuana.” Mazur, as cited for this
proposition by the Court of Appeals, did not. The Court of Appeals
refers to page 312 of Mazur. Following is the entire page of 312 from
Mazur:
This Court has previously addressed the second claim of
immunity in § 4(i):
Notably, § 4(i) does not contain the statutory term
“medical use,” but instead contains two of the nine
activities that encompass medical use: “using” and
“administering” marijuana.... In this context, the
terms “using” and *312 “administering” are limited
to conduct involving the actual ingestion of
marijuana. Thus, by its plain language, § 4(i)
permits, for example, the spouse of a registered
qualifying patient to assist the patient in ingesting
marijuana, regardless of the spouse's status.
[McQueen, 493 Mich, at 158, 828 N.W.2d 644
(emphasis added).]

28

“Medical use”, as defined in former § 3(e),1 is a term that encompasses
nine different actions. Because the second type of immunity available
under § 4(i) refers genetically to “using and administering” marijuana
and not to the statutorily defined “medical use” of marijuana, this
Court read § 4(i) narrowly in McQueen. Because the defendants in
McQueen were engaged in the transfer, delivery, and acquisition of
marijuana—activities that are found under the umbrella of “medical
use”—but were not engaged in the mere use and administration of
marijuana, this Court found that they were not entitled to immunity
under § 4(i). Id. Similarly, defendant here was not merely assisting her
husband with conduct involving the actual ingestion of marijuana;
instead, she assisted him with the cultivation of marijuana. Because
assisting in the cultivation of marijuana does not constitute assistance
with “using” or “administering” marijuana, defendant cannot lay claim
to immunity under this provision of the MMMA.
MCL 333.26424(g):
Under § 4(g) of the MMMA, an individual may claim immunity “for
providing a registered qualifying patient or a registered primary
caregiver with marijuana paraphernalia for purposes of a qualifying
patient's medical use of marijuana.” MCL 333.26424(g). At issue here
is *313 the definition of the term “marijuana paraphernalia,” which is
not explicitly defined in the MMMA.
People v Mazur, 497 Mich 302, 872 NW2d 201 (2015) stands for the
proposition that “Marijuana paraphernalia” under the Michigan Medical Marijuana
Act (MMMA) applies both to those items that are specifically designed for the
medical use of marijuana as well as those items that are actually employed for the
medical use of marijuana. M.C.L.A. § 333.26421 et seq.
ISSUE IV
The Court of Appeals erred when it opined that “Defendant
also claims that the trial court abused its discretion in
1 “Medical use” is now defined in MCL 333.26423(h). “Medical use of marijuana” means the
acquisition, possession, cultivation, manufacture, extraction, use, internal possession, delivery, transfer, or
transportation of marijuana, marijuana- infused products, or paraphernalia relating to the administration of
marijuana to treat or alleviate a registered qualifying patient's debilitating medical condition or symptoms
associated with the debilitating medical condition.” This change in the statute is retroactive pursuant to
Public Act 283

29

ordering a blanket prohibition against the admission of MMMA
evidence. Defendant contends that these errors rise to the level
of constitutional deprivations. We disagree.”
Standard of Review
This Court reviews the proper interpretation and application of statutes de
novo. People v Bemer, 286 Mich App 26, 111 NW2d 464 (2009).
Analysis
In this case the trial court granted the “Prosecution’s Motion in Limine to
Prohibit the Defense from Asserting an affirmative defense under or Presenting any
evidence of the Michigan Medical Marijuana Act” (TT 7/11/17 p 237). The trial court
stated:
So, as a result, I believe that the fact that Mr. Holloway or Mr. Hunt or
Mr. Koshmider has a card to a medical marijuana card for medical
treatment is not relevant under 401, and 402 tells us that irrelevant
evidence is not generally admissible. (TT 7/11/17 p 236)
In general, “‘[a] 11 relevant evidence is admissible,” while “‘[ejvidence which is
not relevant is not admissible.’” People v Henry, 315 Mich App. 130, 889 NW2d 1
(2016), quoting MRE 402 (alterations in original). “Evidence is relevant if it has any
tendency to make the existence of a fact that is of consequence to the action more
probable or less probable than it would be without the evidence.” People v Aldrich,
246 Mich App 101, 631 NW2d 67 (2001). “Relevant evidence may be excluded under
MRE 403 ‘if its probative value is substantially outweighed by the danger of unfair
prejudice, confusion of the issues, or misleading the jury, or by considerations of
undue delay, waste of time, or needless presentation of cumulative evidence.’”
People v Meissner, 294 Mich App 438, 812 NW2d 37 (2011), quoting MRE 403.
Evidence is unfairly prejudicial when there exists a danger that marginally
probative evidence will be given undue or preemptive weight by the jury. People v
Mardlin, 487 Mich. 609, 790 NW2d 607 (2010).

30

“Res gestae” are circumstances, facts and declarations which so illustrate and
characterize the principal fact as to place it in its proper effect.” People u Bostic, 110
Mich App 747, 313 NW2d 98 (1981). As explained by our Supreme Court in People v
Delgado, 404 Mich 76, 83, 273 NW2d 395 (1978),
“It is essential that prosecutors and defendants be able to give the jury an
intelligible presentation of the full context in which disputed events took place.”
People v Sholl, 453 Mich 730, 556 NW2d 851 (1996). Our Supreme Court recently
reiterated “that Delgado and Sholl provide firm support for the notion that evidence
meeting their ‘res gestae’ definition is potentially relevant and admissible.” People v
Jackson, 498 Mich 246, 869 NW2d 253 (2015).
In People v Trzos, unpublished opinion per curiam of the Court of Appeals,
issued December 12, 2017 (Docket No. 334666) (Attachment B) states the following:
The trial court recognized that at least some evidence regarding the
MMMA, reference to the marijuana as medicinal, and evidence that
defendant was a caregiver and/or patient was relevant to explaining
to the factfinder the events and circumstances that led to the alleged
offenses. Essentially, the trial court ruled that some of this evidence
regarding these broad categories was necessary to give the jury the
“complete story”
People v Watkins, Unpublished Opinion of the Court of Appeals per curiam
published August 11, 2011 (Docket 302558 and 302559) (Attachment C) states:
The trial court did not err when it granted the prosecution's motion in
limine to the extent that it precluded both defendants from asserting
or presenting evidence in support of the immunity stated under § 4 or
the defense provided under § 8 of the MMA. The order does not,
however, preclude Eric Watkins from presenting evidence that his
father was a registered, but non-compliant, patient under the MMA for
purposes other than establishing a defense under the MMA. (emphasis
added)
Purposes Other than MMA Defense
Maintaining a drug house defense: Mr. Koshmider could not present any

31

evidence in his defense that he believed that the locked rooms in his basement
leased by the Swaffers complied with the completely dried marijuana2 on the floor
and in the garbage bin were excluded from amounts possessed under the MMA.
Bias. Trial counsel attempted to discover bias felt by a detective.
Q: And isn't it true during that conversation, that you stated
that you were biased against medical marijuana?
MR. ELMORE: Objection, your Honor. Relevance.
MR. COVERT: Bias, bias is always a relevance.
THE COURT: No, it's not relevant here. This isn't a medical
marijuana case. I've already ruled on that. Sustained.
MR. COVERT: But my client, as a medical marijuana patient,
would be experiencing that bias. (TT 7/12/17 p 610-611)
Aiding and abetting legal conduct. Trial counsel was prevented from
arguing that the prosecutor had not met his burden of proving that Mr. Koshmider
had aided and abetted a crime because that would involve the exploration of the
MMMA and whether or not Jayson Hunt or Mike Holloway were committing a
crime.
ISSUE V
The Court of Appeals erred when it opined that Defendant’s
contention that, “whether the employees (who would be
testifying) and defendant had their medical marijuana cards
was relevant to whether defendant aided and abetted them,
given that one could not aid or abet something that is legal.
The trial court agreed with the prosecution and “we find no
abuse in discretion on this issue.”
Standard of Review
This Court reviews the proper interpretation and application of statutes de
novo. People v Berner, 286 Mich App 26, 111 NW2d 464 (2009).
People v Manuel, 319 M ich App 291, 901 NW2d 118 (2017)

32

Analysis
According to section 4, he was not aiding and abetting because he had a
legal defense to prosecution. He testified that he intended the facility to be for
medical marijuana.
“Medical use of marijuana” means: the acquisition, possession,
cultivation, manufacture, use, internal possession, delivery, transfer,
or transportation of marijuana or paraphernalia relating to the
administration of marijuana to treat or alleviate a registered
qualifying patient's debilitating medical condition or symptoms
associated with the debilitating medical condition. [MCL 333.26423(f)]
He was able to assist in the use of marijuana. Additionally, he was entitled
to a hearing on the matter. Further, as will be argued below, the trial court
prohibited Mr. Kosmider from presenting any evidence that he believed that the
locked rooms comphed with the MMA and that the “seeds, stalks and unusable
roots” on the floor and in the garbage bin were excluded from amounts possessed
under the MMA.
Counts 4 and 5—Maintaining a Drug House
For the reasons stated above, the trial court erred and abused its discretion
when it did not allow a Section 4a defense to Counts 4 and 5, Maintaining a drug
house.
The relevant statute is MCL 333.7405(l)(d) as follows:
“Shall not knowingly keep or maintain a store, shop warehouse,
dwelling, building, vehicle, boat, aircraft, or other structure or place,
that is frequented by persons using controlled substances in violation
of this article for the purpose of using controlled substances, or that is
used for keeping or selling controlled substances in violation of this
article.”
Had the trial court made the factual determinations as required, the
marijuana in the basement would not have been included in the equation and Mr.
Koshmider would not have been tried for Maintaining a drug house.
ISSUE VI
The Court of Appeals erred when it opined that the trial court
did not abuse its discretion when it failed to allow the jury to

33

determine whether maintaining a drug house was the
substantial purpose of the user of the property at the two
locations in Counts 4 and 5 as this Court required in People v
Thompson, All Mich 164, 730 NW2d 708 (2007) and trial counsel
was ineffective for failure to know the law and request the
additional, clarifying jury instructions.
Standard of Review/Unpreserved Issue
This Court reviews de novo claims of instructional error. People v Martin, 271
Mich App 280, 721 NW2d 815 (2006).
Appellant may raise an ineffective assistance of counsel claim for the first
time on appeal because it involves a constitutional error that likely affected the
outcome of the trial. People u Henry, 239 Mich App 140; 607 NW2d 767 (1999).
The performance and prejudice prongs of an ineffective assistance of counsel
claim are mixed questions of law and fact reviewed de novo. Strickland v
Washington, 466 US 668, 104 S Ct 2052 (1984).
Analysis
In Counts No. 4 and 5, Defendant-Appellant was charged with the
maintaining or keeping of a drug house. These allegations had to do with his shop
at 1552 Plett Road and his residence at 3576 Sarah St.
The trial court read the following jury instruction to the jury:
First, that the defendant knowingly kept or maintained, as to Count 4,
a building, and as to Count 5,. a dwelling; second, at this building and
or dwelling was frequented by persons for the purpose of illegally using
controlled substances or used for illegally keeping controlled
substances, or used for illegally selling of controlled substances; third,
that the defendant knew that the building and or dwelling was
frequented or used for such illegal purposes. (T 985-986)
“A criminal defendant has a constitutional right to have a jury determine his
or her guilt from its consideration of every essential element of the charged offense.”
People v Kowalski, 489 Mich 488, 803 NW2d 200 (2011). Thus, a defendant is
entitled to have all the elements of the crime submitted to the jury. Id.
34

“Instructional errors are presumed to be harmless, MCL 769.26, but the
presumption may be rebutted by a showing that the error resulted in a miscarriage
of justice.” People v Dupree, 284 Mich App 89,117; 771 NW2d 470 (2009). See also
People v Riddle, 467 Mich. 116, 124-125; 649 NW2d 30 (2002) (“The defendant's
conviction will not be reversed unless, after examining the nature of the error in
light of the weight and strength of the untainted evidence, it affirmatively appears
that it is more probable than not that the error was outcome determinative.”).
The Criminal Jury Instructions are not promulgated by the Supreme Court;
they are drafted by the Michigan State Bar Standing Committee on Standard
Criminal Jury Instructions and are adopted after taking public comments on
proposed revisions and additions. People v Stephan, 241 Mich App 482, n 10; 616
NW2d 188 (2000). Our Supreme Court stated the following in People u Petrella, 424
Mich 221, 380 NW2d 11 (1985):
Moreover, we remind the bench and bar once again that the Michigan
Criminal Jury Instructions do not have the official sanction of this
Court. Their use is not required, and trial judges are encouraged to
examine them carefully before using them, in order to ensure their
accuracy and appropriateness to the case at hand. [Id. (emphasis
added).]
It is “error for the trial court to give an erroneous or misleading jury
instruction on an essential element of the offense” including when the misleading
instruction is taken from the Criminal Jury Instructions. Id. While the Supreme
Court “urges” trial courts to utilize these criminal jury instructions, this is not a
mandate. Stephan, supra, supra. “Where a Criminal Jury Instruction does not
accurately state the law,” trial courts must refuse to give it. Stephan, supra at 495.
Maintaining a Drug House
The relevant statute is MCL 333.7405(1) (d) as follows:
“Shall not knowingly keep or maintain a store, shop, warehouse,

35

dwelling, building, vehicle, boat, aircraft, or other structure or place,
that is frequented by persons using controlled substances in violation
of this article for the purpose of using controlled substances, or that is
used for keeping or selling controlled substances in violation of this
article.”
The Michigan Supreme construed the phrase “keep or maintain” in the case
of People v Thompson, All Mich 164, 730 NW2d 708 (2007) where it ascertained the
legislative intent as well as surveying other states in interpreting the phrase. The
Supreme Court of Michigan concluded the following:
“The state need not prove that the property was used for the
exclusive purpose of keeping or distributing controlled substances,
but such use must be a substantial purpose of the users of the
property, and the use must be continuous to some degree; incidental
use of the property for keeping or distributing drugs or a single,
isolated occurrence of drug-related activity will not suffice. The
purpose [for] which a person uses property and whether such use is
continuous are issue of fact to be decided on the totality of the
evidence of each case; the state is not required to prove more than a
single specific incident involving the keeping or distribution of drugs
if other evidence of continuity exits.” Id at 156.
In the case of People v LaForest, unpublished opinion per curiam of the Court
of Appeals, decided May 25, 20110 (Docket No. 291553) (Attachment D) the jury
heard the following jury instructions:
“First, that the Defendant knowingly kept or maintained a
dwelling. Second, that this dwelling was used for illegally keeping
controlled substances. Third, that the Defendant knew that the
dwelling was frequented or used for such illegal purposes.
“Now, the phrase keep or maintain implies usage with some
degree of continuity that can be deduced by actual observation of
repeated acts or circumstantial evidence, such as perhaps a secret
compartment or the like, that leads to the same conclusion. In other
words, the State need not prove that the home was used for the
exclusive use of keeping marijuana, but such use must be a substantial
purpose of the user of the property, (emphasis added)

36

“The use of keeping of marijuana must be continuous to some
degree. Incidental use of the property for keeping marijuana or a single
isolated occurrence of drug related activity will not suffice. Whether
the Defendant used the residence to keep marijuana and whether such
use is continuous, are questions of fact for you to decide based on the
totality of the evidence. The State is not required to prove more than a
single specific incident involving the keeping of drugs if other evidence
of continuity exists.”
For unknown reasons, the Michigan Model Criminal Jury Instructions does
not include the language of Paragraphs 2, 3, and 4, above. It merely notes the case
of “People v Thompson, ATT Mich 146, 156-57, 730 NW2d 708 (2007)” in the
footnotes.
In People v Norfleet, 317 Mich App 649; 897 NW2d 195 (2016). Defendant was
convicted of various drug crimes, including keeping or maintaining a drug house and a
drug vehicle under MCI 333.7405(d). This Court agreed that two counts were defective as
to the elements in that they failed to provide a definition of “keep or maintain,” and
neglected to instruct on the requirement of continuous use.
In the alternative, pursuant to Strickland v Washington, 466 US 668,104 S
Ct 2052 (1984), it was ineffective assistance of counsel for not knowing the law
where the additional information for the jury would have bolstered Defendant
Appellant’s defense to maintaining a drug house/vehicle. Failure to research
Thompson and request additional jury instructions betrays a startling ignorance of
the law. Kimmelman v Morrison, ATT US 365, 106 S Ct 2574 (1986).
Prejudice
Continuous Use AND Substantial Purpose
Prejudice can be shown by something less than a preponderance of the

37

evidence. Strickland v Washington, 466 US 668, 104 S Ct 2052 (1984) ("The result
of a proceeding can be rendered unreliable, and hence the proceeding itself unfair,
even if the errors of counsel cannot be shown by a preponderance of the evidence to
have determined the outcome.").
It affirmatively appears that it is more probable than not that the error was
outcome determinative. Especially at his home there was not continuous use and
substantial purpose. Defendant-Appellant respectfully requests this Court reverse
his convictions for Maintaining a Drug House and Vehicle (MCL 333.7450(l)(d)
based on the insufficiency of the jury instruction, or in the alternative, based on
ineffective assistance of counsel.
ISSUE VII
The evidence was insufficient in Counts 3 and 7 that Mr.
Koshmider aided and abetted Jayson Hunt & Mike Holloway to
illegally distribute marijuana.
Standard of Review
A claim of insufficiency of the evidence invokes a defendant’s constitutional
right to due process of law. US Const, Am, XIV; Const 1963, Art I, Section 17; In re
Winship, 397 US 358, 364; 90 SCt 1068 (1970) which this court reviews de novo on
appeal. People v Hawkins, 245 Mich App 439, 457; 628 NW2d 105 (2001). “[T]his
Court reviews the evidence in the light most favorable to the prosecution and
determines whether a rational trier of fact could find that the essential elements of
the crime were proven beyond a reasonable doubt.” People v Fennell, 260 Mich App
261, 270; 677 NW2d 66 (2004).

38

Analysis
Our Michigan Supreme Court, when comparing the concept of the
sufficiency of evidence to the relevancy of evidence stated in People v Hampton, 407
Mich 354, 285 NW2d 284 (1979):
The concept of sufficiency, on the other hand, is designed to determine
whether all the evidence, considered as a whole, justifies submitting
the case to the trier of fact or requires a judgment as a matter of law.
This is in contrast to the standards for relevancy which usually focus
on one particular piece of evidence. The fact that some evidence is
introduced does not necessarily mean that the evidence is sufficient to
raise a jury issue, (emphasis added) Because there is no requirement
that the evidence be sufficient to support a conviction to be admissible,
it does not necessarily follow that merely because some evidence is
admitted, the evidence is sufficient to raise a jury issue.
Due process requires that the prosecutor introduce sufficient evidence which
could justify a trier of fact in reasonably concluding that defendant is guilty beyond
a reasonable doubt before a defendant can be convicted of a criminal offense, see,
Jackson, supra. If sufficient evidence is not introduced, a directed verdict or
judgment of acquittal should be entered. The statements in Johnson, supra;
Abernathy, supra; Eaton, supra, [3] to the effect that a trial judge should direct a
verdict only where there is no evidence on a material element of the offense are
specifically disapproved. Id. at 367
Additionally, the prosecution must prove its theory beyond a reasonable
doubt in the face of any contradictory evidence provided by defendant. People v
Nowack, 462 Mich 392, 400; 614 NW2d 78 (2000).

•’ People v Johnson, 397 Mich. 686, 246 N.W.2d 836, (1976); People v Abernathy, 253 Mich. 583, 235 N.W. 261,
(1931); People vEaton, 59 Mich. 559, 26 N.W. 702, (1886)

39

Elements of Aiding and Abetting
Delivery means that the defendant transferred or attempted transfer
the substance to another person knowing that it was marijuana and
intending to transfer it to that person. In this case, the defendant is
charged with committing the delivery of marijuana or intentionally
assisting someone else in committing it. Anyone who intentionally
assists someone else in committing a crime is as guilty as the person
who directly commits it and can be convicted of that crime as an aider
and abettor.
To prove this charge, the Prosecutor must prove each of the following
elements beyond a reasonable doubt:
First, that the alleged crime was actually committed, either by the
defendant or someone else. It does not matter whether anyone else has
been convicted of the crime. Second, that before or during the crime,
the defendant did something to assist in the commission of the crime;
third, that -- that at that time, the defendant must have intended the
commission of the crime alleged or must have known that the other
person intended its commission or that the crime alleged was a natural
and probable consequence of the commission of the crime intended. It
does not matter how much help, advice, or encouragement the
defendant gave; however, you must decide whether the defendant
intended to help another commit the crime; and whether this help,
advice, or encouragement actually did help, advise, or encourage the
crime. (T 983-984)
Was an alleged crime actually committed? The answer to that question could
not be explored because the MMA could not be considered. Therefore, the evidence
of the first element was not proven beyond a reasonable doubt and the two aiding
and abetting charges must be reversed.
Relief Requested and Conclusion
WHEREFORE, for the foregoing reasons, Defendant-Appellant asks that
this Court reverse his conviction and remand for a new trial and grant Petitioners
Writ of Certiorari.

40

Respectfully submitted,

Dated: September 4, 2020

/sf Donald J. Koshmider II
DONALD J. KOSHMIDER II
Petitioner
3576 Sarah Street
Cadillac, Michigan 49601
(231) 884-4376

